No. 19-1051
IN THE

Supreme Court of the United States
STATE OF KANSAS,
Petitioner,
v.
TIMOTHY C. BOETTGER & RYAN R. JOHNSON,
Respondents.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 25th day of March, 2020, I caused three copies of the Brief for Kansas
Coalition Against Sexual and Domestic Violence, Legal Momentum, National Crime
Victim Law Institute, and National Organization for Victim Assistance as Amici Curiae
in Support of Petitioner to be served by third-party commercial carrier on the counsel
identified below, and caused an electronic version to be transmitted to the counsel
identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties required
to be served have been served.
Toby Crouse
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL OF
KANSAS
120 S.W. 10th Avenue, 2nd Floor
Topeka, KS 66612
(785) 368-6693
toby.crouse@ag.ks.gov

Jeffrey T. Green
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8291
jgreen@sidley.com
Counsel for Respondents

Counsel for Petitioner

___________________________
Bradley G. Hubbard

